     Department of Homeland Security

     2IÀFHRI,QVSHFWRU*HQHUDO


  West Jackson County Utility District, Mississippi, 

 Effectively Managed FEMA Public Assistance Grant 

   Funds Awarded for Hurricane Katrina Damages





OIG-14-152-D                            September 2014

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
                                       Washington, DC 20528 / www.oig.dhs.gov


                                            September 19, 2014

MEMORANDUM FOR:	                      Andrew Velasquez III
                                      Acting Regional Administrator, Region IV
                                      Federal Emergency Management Agency


FROM:                                 John V. Kelly
                                      Assistant Inspector General
                                      Office of Emergency Management Oversight

SUBJECT:                              West Jackson County Utility District, Mississippi, Effectively
                                      Managed FEMA Public Assistance Grant Funds Awarded
                                      for Hurricane Katrina Damages
                                      FEMA Disaster Number 1604-DR-MS
                                      Audit Report Number OIG-14-152-D

We audited Public Assistance funds awarded to West Jackson County Utility District
(Utility District) located in Ocean Springs, Mississippi (FIPS Code 059-UXD4L-00). Our
audit objective was to determine whether the Utility District accounted for and
expended Federal Emergency Management Agency (FEMA) funds according to Federal
regulations and FEMA guidelines.

The Utility District received a Public Assistance grant award of $2.5 million from the
Mississippi Emergency Management Agency (Mississippi), a FEMA grantee, for damages
resulting from Hurricane Katrina, which occurred in August 2005. The award provided
100 percent FEMA funding for debris removal activities, emergency protective
measures, and repairs to permanent buildings and facilities. The award consisted of
three large projects and six small projects. 1

We audited three large projects with awards totaling $2.4 million (see Exhibit, Schedule
of Projects Audited). The audit covered the period of August 29, 2005, to January 8,
2014, during which the Utility District claimed $2.4 million in FEMA funds for the three
projects we reviewed. At the time of our audit, the Utility District had completed work
on all projects and had submitted a final claim in October 2011 to Mississippi for all
project expenditures.




1
    Federal regulations in effect at the time of Hurricane Katrina set the large project threshold at $55,500.
                                           OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security

     Table1showsthegrossandnetawardamountsbeforeandafterreductionsfor
     insuranceforallprojectsandforthoseinourauditscope.
                                                   
                              Table1:GrossandNetAwardAmounts
     
                                     Gross
                                      Award         Insurance       NetAward
                                     Amount       Reductions        Amount
               AllProjects        $2,460,053            $(4,770)     $2,455,283
               AuditScope         $2,365,602           $(0)  $2,365,602
                                                 Source:FEMAProjectWorksheets
     
     WeconductedthisauditbetweenJanuary2014andJuly2014pursuanttotheInspector
     GeneralActof1978,asamended,andaccordingtogenerallyacceptedgovernment
     auditingstandards.Thosestandardsrequirethatweplanandperformtheauditto
     obtainsufficient,appropriateevidencetoprovideareasonablebasisforourfindings
     andconclusionsbaseduponourauditobjective.Webelievethattheevidenceobtained
     providesareasonablebasisforourfindingsandconclusionsbaseduponouraudit
     objective.Toconductthisaudit,weappliedthestatutes,regulations,andFEMApolicies
     andguidelinesineffectatthetimeofthedisaster.
     
     WeinterviewedFEMA,Mississippi,andUtilityDistrictofficials;gainedanunderstanding
     oftheUtilityDistrict’smethodofaccountingfordisasterͲrelatedcostsandits
     procurementpoliciesandprocedures;judgmentallyselectedandreviewed(generally
     basedondollaramounts)projectcostsandprocurementtransactionsfortheprojects
     includedinourreview;reviewedapplicableFederalregulationsandFEMAguidelines;
     andperformedotherproceduresconsiderednecessaryunderthecircumstancesto
     accomplishourauditobjective.Aspartofourstandardauditingprocedures,wealso
     notifiedtheRecoveryAccountabilityandTransparencyBoardofallcontractsthe
     subgranteeawardedundertheprojectswithinourauditscopetodeterminewhether
     thecontractorsweredebarredorwhethertherewereanyindicationsofotherissues
     relatedtothemthatwouldindicatefraud,waste,orabuse.TheRecoveryAccountability
     andTransparencyBoarddeterminedthatnoneofthecontractorsweredebarredandno
     otherissuescametoitsattentionrelatedtothosecontractorsthatwouldindicatefraud,
     waste,orabuse.WedidnotperformadetailedassessmentoftheUtilityDistrict’s
     internalcontrolsapplicabletoitsgrantactivitiesbecauseitwasnotnecessaryto
     accomplishourauditobjective.
     
     
                                          RESULTSOFAUDIT
     
     Fortheprojectswereviewed,theUtilityDistrictgenerallyaccountedforandexpended
     FEMAfundsaccordingtoFederalregulationsandFEMAguidance.
     

www.oig.dhs.gov2OIGͲ14Ͳ152ͲD
                                           OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security

     
                          DISCUSSIONWITHMANAGEMENTANDAUDITFOLLOWUP
     
     WediscussedtheresultsofourauditwithUtilityDistrict,Mississippi,andFEMAofficials
     duringouraudit.Wealsoprovidedadraftreportinadvancetotheseofficialsand
     discusseditattheexitconferenceonJuly10,2014.Becausetheauditdidnotidentify
     anyissuesrequiringfurtheractionfromFEMA,weconsiderthisauditclosed.
     
     ConsistentwithourresponsibilityundertheInspectorGeneralAct,wewillprovide
     copiesofourreporttoappropriatecongressionalcommitteeswithoversightand
     appropriationresponsibilityovertheDepartmentofHomelandSecurity.Wewillpost
     thereportonourwebsiteforpublicdissemination.
     
     MajorcontributorstothisreportareDavidKimble,Director;LarryArnold,Audit
     Manager;andRickeySmith,AuditorͲinͲCharge.
     
     Pleasecallmewithanyquestionsat(202)254Ͳ4100,oryourstaffmaycontact
     DavidKimble,Director,EasternRegionalOffice,at(404)832Ͳ6702.
     
     
     
     
     
     
     
     
     
     
     
     
                                                                                                                                        
                                                                                                                                        
                                                                                                                                        
                                                                                                                                        
                                                                                                                                        
                                                                                                                                        
                                                                                                                                        
                                                                                                                                        
                                                




www.oig.dhs.gov3OIGͲ14Ͳ152ͲD
                                           OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security

                                                                                                                              Exhibit
                                                                    
                                                      ScheduleofProjectsAudited
                                                                    
           Project                                                                                              Amount
           Number                  Category                           ProjectScope                             Awarded
                                                             GrinderPumpStationsand
                 850                    F                  Controllers                                         $1,711,094
                2421                    A                  UtilityEasement                                      29,010
                                                             SewerandWaterMainsand
              2887                      F                  ServiceConnections                                  625,498
            Totals                                                                                             $2,365,602
                                                                    
                                                     Source:FEMAProjectWorksheets
                                                




www.oig.dhs.gov4OIGͲ14Ͳ152ͲD
                                           OFFICE OF INSPECTOR GENERAL
                                                 Department of Homeland Security

                                                                                                                          Appendix
          
                                                     ReportDistributionList
     
     DepartmentofHomelandSecurity
     Secretary
     ChiefofStaff
     ChiefFinancialOfficer
     UnderSecretaryforManagement
     ChiefPrivacyOfficer
     AuditLiaison
     
     FederalEmergencyManagementAgency
     Administrator
     ChiefofStaff
     ChiefFinancialOfficer
     ChiefCounsel
     ChiefProcurementOfficer
     Director,RiskManagementandCompliance
     AuditLiaison,RegionIV
     AuditLiaison,(JobCodeGͲ14Ͳ017)
     
     Mississippi
     ExecutiveDirector,MississippiEmergencyManagementAgency
     StateAuditor,Mississippi
     
     Subgrantee
     GeneralManager,WestJacksonCountyUtilityDistrict
     
     OfficeofManagementandBudget
     Chief,HomelandSecurityBranch
     DHSOIGBudgetExaminer
     
     RecoveryAccountabilityandTransparencyBoard
     Director,Investigations,RecoveryAccountabilityandTransparencyBoard
     
     Congress
     SenateCommitteeonAppropriations,SubcommitteeonHomelandSecurity
     SenateCommitteeonHomelandSecurityandGovernmentalAffairs
     HouseCommitteeonAppropriations,SubcommitteeonHomelandSecurity
     HouseCommitteeonHomelandSecurity
     HouseCommitteeonOversightandGovernmentReform
     HouseCommitteeonTransportationandInfrastructure



www.oig.dhs.gov5OIGͲ14Ͳ152ͲD
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
